                                                                             Report No. DODIG-2014-071




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 8 , 2 0 1 4




                     Air Force Deputy Disbursing
                     Officers Held Excess Cash




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                             Results in Brief
                                             Air Force Deputy Disbursing Officers
                                             Held Excess Cash


May 8, 2014                                                        Finding Continued

Objective                                                          require that automated teller machines or electronic funds transfer
                                                                   be used for contingency operations such as hurricane evacuations
We         determined        whether         selected       DoD    in the continental U.S. (CONUS). The U.S.  Treasury could save up to
disbursing       offices    were      holding      appropriate     $6,300 in annual borrowing costs if the Air  Force reduced its level of
amounts of cash on hand and cash in limited                        excess cash.         Air  Force DDOs could reduce the risks of theft or loss
depositary        checking       accounts.         Additionally,   by adopting practices used by the Navy to limit cash held on hand
we     determined          whether     controls      were    in    to fund hurricane evacuations.
place to assess cash holding requirements accurately
at selected DoD disbursing offices.                                In addition, the Hurlburt Field DDO held more cash than authorized,
                                                                   exceeding his cash holding authority (CHA) of $1.2 million by $88,000.  This
                                                                   occurred because he misinterpreted the DoD Financial Management
Finding                                                            Regulation’s definition of cash. As a result, controls designed to limit
As    of     October  1,  2013,        Air    Force     deputy     the DDO’s accountability were weakened and the risks of theft or
disbursing      officers    (DDOs)     held     $6.3  million      loss of cash were increased.
in cash that was in excess of what was needed
to    fund       paying      agents     and       contingency      During      the      audit,    Joint    Base  Charleston        reduced      the    amount
operations.  Specifically, the DDOs at:                            of cash to fund paying agents by $400,000 in its CHA; while
                                                                   Offutt  AFB stated that it planned to reduce its cash to fund
     •	 Joint Base Charleston held $1.2  million                   paying      agents       by     $185,000        in    its   CHA.     In    addition,      the
           in excess cash to fund paying agents                    Hurlburt      Field      DDO         reduced    his    cash     on    hand     to    be    in
           and contingency operations;                             compliance with his CHA.

     •	 Hurlburt Field held $1.1  million in excess
           cash to fund paying agents and contingency              Recommendations
           operations;
                                                                   We       recommend            that      the     Director,     Disbursing       Operations
     •	 MacDill Air Force Base (AFB) held $1.8 million             revise     the     DFAS       Disbursing       Operations     Procedures       Manual      to
           in excess cash to fund contingency operations;          provide DDOs guidance to calculate how much cash is needed
                                                                   to fund paying agents.                 In addition, revise the manual to require
     •	 Eglin AFB held $2  million in excess cash                  alternatives to cash for CONUS evacuation payments or justify
           to fund contingency operations; and                     how much cash must be used to make these payments.

     •	 Offutt AFB held $185,000 in excess cash to
           fund paying agents.
                                                                   Management Comments and Our
This occurred because the Defense Finance and                      Response
Accounting Service (DFAS) Disbursing Operations
                                                                   The      Director,     DFAS,     Indianapolis,        responding     for     the    Director,
Procedures Manual did not provide adequate
                                                                   Disbursing        Operations         (DFAS,    Indianapolis),      fully   addressed      all
guidance for determining the cash needs for paying
                                                                   specifics of the recommendation, and no further comments are
agents and contingencies.  Additionally, it did not
                                                                   required.        Please see the Recommendations Table on the next page.

Visit us on the web at www.dodig.mil


                                                                                     Report No. DODIG-2014-071 (Project No. D2013-D000FE-0117.000) │ i
                   Recommendations Table
                                                                      Recommendations        No Additional
                                     Management                       Requiring Comment    Comments Required
                    Director, Disbursing Operations (Defense
                    Finance and Accounting Service,                  N/A                  1.a, 1.b
                    Indianapolis)




ii │ Report No. DODIG-2014-071 (Project No. D2013-D000FE-0117.000)
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                   May 8, 2014

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
               	 MANAGEMENT AND COMPTROLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE

SUBJECT:	 Air Force Deputy Disbursing Officers Held Excess Cash
          (Report No. DODIG-2014-071)

We are providing this report for your information and use. Air Force Deputy Disbursing
Officers held $6.3 million in cash that was in excess of what was needed to fund paying agents
and contingency operations.

We considered management comments on a draft of this report when preparing the
final report. Comments from the Director, Defense Finance and Accounting Service,
Indianapolis, responding for the Director, Disbursing Operations (Defense Finance and
Accounting Service, Indianapolis), conformed to the requirements of DoD Directive  7650.3;
therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff.  Please direct questions to me at
(703) 601‑5945 (DSN 329-5945).




                                            Lorin T. Venable, CPA
                                            Assistant Inspector General
                                            Financial Management and Reporting




                                                                                 Report No. DODIG-2014-071 │ iii
                   Contents
                   Introduction
                   Objectives_________________________________________________________________________________________1
                   Background_______________________________________________________________________________________1
                   	    Cash Holding Guidance______________________________________________________________________2
                   	    Disbursing and Deputy Disbursing Officers_______________________________________________3
                   	    Excess and Unauthorized Cash_____________________________________________________________3
                   Review of Internal Controls_____________________________________________________________________3

                   Finding. Air Force Deputy Disbursing Officers
                   Held Excess Cash______________________________________________________________________4
                   Air Force DDOs Held More Cash Than Needed________________________________________________5
                   	    Cash Needed to Fund Paying Agents _ _____________________________________________________5
                   	    Cash Needed to Fund Contingency Operations____________________________________________6
                   Cash Calculation Criteria Needed_______________________________________________________________6
                   Navy Cash Management Best Practices_ _______________________________________________________7
                   Hurlburt Field DDO Exceeded Cash Holding Authority_______________________________________7
                   Management Actions____________________________________________________________________________8
                   Recommendations, Management Comments, and Our Response____________________________8

                   Appendix
                   Scope and Methodology_______________________________________________________________________ 10
                   	    Prior Audit Coverage______________________________________________________________________ 11

                   Management Comments
                   Defense Finance And Accounting Service, Indianapolis Comments_ ______________________ 13

                   Acronyms and Abbreviations______________________________________________ 15




iv │ Report No. DODIG-2014-071
                                                                                           Introduction




Introduction
Objectives
Our objective was to determine whether selected DoD disbursing offices were
holding appropriate amounts of cash on hand and cash in limited depositary
checking accounts. Additionally, we determined whether controls were in place to
assess cash holding requirements accurately at selected DoD disbursing offices.

Due to ongoing and prior audits of disbursing offices outside of the continental
U.S. (CONUS), we limited our audit to Air  Force disbursing offices within CONUS.  In
addition, the CONUS disbursing offices we selected for our audit do not maintain
limited depositary checking accounts, which are primarily used by disbursing
offices outside the CONUS.       Thus, limited depositary checking accounts are
not discussed in this report. See the Appendix for a discussion on the scope,
methodology, and prior audit coverage.


Background
We reviewed five Air  Force disbursing offices in the CONUS: Joint Base Charleston,
South Carolina; MacDill Air Force Base (AFB), Florida; Offutt  AFB, Nebraska;
Eglin  AFB, Florida; and Hurlburt  Field, Florida.  A disbursing office is an
activity, or the organizational unit of an activity whose principal function is the
disbursement, collection, and reporting of public funds.    Each disbursing office is
assigned a disbursing station symbol number (DSSN) by the U.S.  Treasury.          The
DSSN indicates that authority has been granted to receive and disburse public
funds and issue checks on behalf of the U.S.  Treasury. The Air  Force reported its
entire cash holding, $52 million as of September 30, 2013, under DSSN 3801.

The Federal Accounting Standards Advisory Board, Statement of Federal Financial
Accounting Standards No.  1, “Accounting for Selected Assets and Liabilities,”
March  30,  1993, defines cash as “(a) coins, paper currency and readily negotiable
instruments, such as money orders, checks, and bank drafts on hand or in transit
for deposit; (b) amounts on demand deposit with banks or other financial
institutions; and (c) foreign currencies.”  The Federal Government borrows
money to obtain and hold cash.       Underutilized cash should be returned to the
U.S.  Treasury. Every dollar held as cash rather than used to augment revenues
or decrease expenditures represents a lost opportunity.         Funds that are not
needed to cover expected transactions can be used to pay off outstanding debt




                                                                              Report No. DODIG-2014-071 │ 1
Introduction



                  or can be invested to generate a flow of funds into the U.S.  Treasury’s account.
                  Thus, there is a borrowing cost or interest cost to holding cash in support of
                  disbursing operations.

                  We classified Air  Force cash into three separate categories: operating cash, cash
                  to fund paying agents, and cash to fund contingency operations.  Operating cash
                  is the cash needed to keep the disbursing office open each day. It is used for a
                  variety of purposes including refunds for over payments, entitlement payments
                  to foreign nationals, and cash collections for debts owed by military personnel.
                  Cash is also provided to paying agents to pay for items in locations where
                  other forms of payments are not accepted.  Paying agents use cash to pay for
                  expenses such as aircraft fuel and landing fees.  Contingency cash is used to
                  fund contingencies such as hurricane evacuations or repairs for hurricane damage.


                  Cash Holding Guidance
                  DoD Regulation 7000.14-R, “Financial Management Regulation” (FMR) volume  5,
                  chapter  3, provides guidance for holding and safeguarding public funds including
                  cash. The regulation requires that cash be kept on hand in the minimum amount
                  necessary to meet normal requirements.  It also requires deputy disbursing officers
                  (DDOs) to submit a cash holding authority (CHA) request semiannually based
                  on disbursements and collections over a representative period of time, usually
                  3  months. The CHA defines the maximum amount of cash the DDO and their agents
                  may have and is the primary internal control for limiting cash on hand. Defense
                  Finance and Accounting Service (DFAS) Disbursing Operations Procedures Manual,
                  section  III, chapter  15 establishes the process that Air  Force DDOs must follow
                  for preparing their CHA request. It provides detailed guidance for computing the
                  cash needed for conducting operations.

                  DoD FMR, volume  9, chapter  7, provides guidance for making evacuation advances
                  and payments.  The regulation states that advances to evacuees will be made using
                  automated teller machines (ATMs) or through electronic funds transfer (EFT). The
                  guidance also states that if no ATM is available or EFT cannot be used, then the
                  supporting disbursing office may use an alternative payment method. Additionally,
                  DoD  FMR volume  5, chapter  11, states that cash is the least preferred disbursement
                  method and should only be used when no other alternatives exist.




2 │ Report No. DODIG-2014-071
                                                                                          Introduction



Disbursing and Deputy Disbursing Officers
Each disbursing office has a disbursing officer (DO) and should have at least
one DDO position under the DO’s direct cognizance or control.        DOs are agents
of the U.S.  Treasury who perform disbursing functions and are accountable to
the U.S.  Treasury for the cash items in their possession. DOs may provide funds
to DDOs and paying agents or authorize DDOs to obtain funds.          Paying agents
are appointed by their commander to conduct specific types of transactions
for a definitive time period.  Paying agents receive an appointment letter and
coordinate with the disbursing office to pick up cash. The agents are responsible
for the funds until they return the funds, receipts, or both to the disbursing
office.  The Air  Force has one DO in Indianapolis,  Indiana who reviews and
approves DDO CHA requests.  This DO has 79  Air  Force sites worldwide,
including 63 Air Force CONUS sites.


Excess and Unauthorized Cash
The term excess in this audit refers to cash authorized above what we determined
was needed to meet the DDO’s disbursing needs.  We determined excess cash
amounts by subtracting the maximum amount of cash advanced to paying agents
in the prior 3  months from the amount requested in the CHA.         We considered
any cash amounts requested for CONUS hurricane evacuations and other
CONUS contingencies excess because alternatives to cash, such as ATMs and
EFTs are widely available in CONUS.  The term unauthorized cash in this audit
refers to cash held in excess of the DDO’s CHA.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May  30,  2013, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness pertaining to Air  Force DDOs holding cash in excess of what was
needed to fund paying agents and contingency operations at the five locations
reviewed.  This occurred because the DFAS Disbursing Operations Procedures
Manual did not provide adequate guidance for determining the cash needs for
paying agents and contingencies.      In addition, the Hurlburt Field DDO held more
cash than authorized, exceeding his CHA of $1.2  million by $88,000 because the DDO
misinterpreted policy and mistakenly believed that checks were not part of his CHA.
We will provide a copy of the report to the senior official responsible for internal
controls in the Air Force.


                                                                             Report No. DODIG-2014-071 │ 3
Finding




                   Finding
                   Air Force Deputy Disbursing Officers Held Excess Cash
                   As of October  1,  2013, Air Force DDOs held $6.3  million in cash that was in
                   excess of what was needed to fund paying agents and contingency operations.
                   Specifically, the DDOs at:

                                 •	 Joint Base Charleston held $1.2  million in excess cash to fund paying
                                     agents and contingency operations;

                                 •	 Hurlburt Field held $1.1  million in excess cash to fund paying agents
                                     and contingency operations;

                                 •	 MacDill AFB held $1.8  million in excess cash to fund contingency
                                     operations;

                                 •	 Eglin AFB held $2  million in excess cash to fund contingency
                                     operations; and

                                 •	 Offutt AFB held $185,000 in excess cash to fund paying agents.

                   This occurred because the DFAS Disbursing Operations Procedures Manual did not
                   provide adequate guidance for determining the cash needs for paying agents and
                   contingencies. Also, it did not require that ATMs or EFT be used for contingency
                   operations such as hurricane evacuations in the CONUS.                                        Holding cash outside of
                   the U.S.  Treasury effectively increases the U.S.  Treasury’s borrowing costs.  In
                   addition, holding excess cash increases the risk of theft or loss and increases
                   administrative costs of securing it. The U.S.  Treasury could save up to $6,3001 in
                   annual borrowing costs if the Air  Force reduced its level of excess cash.
                   Air  Force DDOs could reduce these risks by adopting practices used by the Navy
                   to limit cash held on hand to fund hurricane evacuations.

                   In      addition,        the     Hurlburt         Field       DDO       held       more       cash       than      authorized,
                   exceeding his CHA of $1.2  million by $88,000.                                   This occurred because the DDO
                   misinterpreted the DoD  FMR’s definition of cash and mistakenly believed that
                   checks were not part of his CHA. As a result, controls designed to limit the DDO’s
                   accountability were weakened and the risks of theft or loss of cash were increased.


                   	1	
                         We calculated $6,300 by multiplying the total excess cash of $6.3 million by the U.S. Treasury’s 1-year interest rate of 0.1%
                         as of October 1, 2013.




4 │ Report No. DODIG-2014-071
                                                                                                      Finding



Air Force DDOs Held More Cash Than Needed
Air Force DDOs at five sites held $6.3  million in cash that was in excess of what
was needed to fund paying agents and contingency operations.  DoD FMR
volume  5, chapter  3 states that cash should be limited to the minimum necessary
to meet normal requirements.        Specifically, as of October  1,  2013, DDOs at Joint
Base  Charleston, Hurlburt Field, and Offutt  AFB held $1.5  million in excess cash to
fund paying agents.     DDOs at Joint Base  Charleston, Hurlburt Field, MacDill AFB,
and Eglin AFB held $4.8  million in excess cash to fund contingency operations
(see Table 1).

Table 1. Air Force Deputy Disbursing Officers Excess Cash as of October 1, 2013
                                   Excess Cash to Support:
   Deputy Disbursing
                                                    Contingency         Total Excess Cash
    Office Location     Paying Agent Missions
                                                    Operations
 Charleston                     $711,000               $500,000           $1,211,000
 Hurlburt                        619,000                500,000            1,119,000
 MacDill                              0               1,750,000            1,750,000
 Eglin                                0               2,000,000            2,000,000
 Offutt                          185,000                     0               185,000
   Total                     $1,515,000              $4,750,000           $6,265,000


Cash Needed to Fund Paying Agents
The DDOs at Joint Base  Charleston, Hurlburt  Field, and Offutt  AFB held more cash
than needed to fund paying agents.  Specifically, DDOs at Joint Base  Charleston,
Hurlburt  Field, and Offutt  AFB were authorized $2.7  million in cash to support
paying agent missions (see Table 2).       However, these DDOs could have supported
paying agents with $1.2  million, which is the maximum the DDOs advanced to
paying agents in the 3  months of cash usage they based their CHA request on
or were able to justify.  For example, the DDO at Joint Base  Charleston had
$1  million in CHA to fund paying agents; however, from June  1,  2013, through
August  30,  2013, the maximum amount issued to paying agents was $289,000. As
a result, the DDO at Joint Base  Charleston held $711,000 in excess of what was
needed to fund paying agents.




                                                                                   Report No. DODIG-2014-071 │ 5
Finding



                  Table 2. Paying Agent Authorizations
                       Deputy Disbursing                                            Cash Needed to Fund
                                            Cash Authorized for Paying Agents
                        Office Location                                                Paying Agents
                    Charleston                           $1,000,000                      $289,000
                    Hurlburt                               700,000                         81,000
                    Offutt                                1,000,000                       815,000
                      Total                              $2,700,000                     $1,185,000


                  Cash Needed to Fund Contingency Operations
                  Air Force DDOs at Joint Base  Charleston, Hurlburt  Field, MacDill  AFB, and Eglin  AFB
                  held $4.8  million in excess cash to support contingency operations.               The DDOs
                  stated that they held this cash to advance cash to service members, their dependents,
                  and DoD civilians to aid in evacuations and to resume operations after a disaster.
                  Alternatives to cash, such as the use of ATMs and EFTs to fund CONUS evacuations
                  and resume operations, could reduce or eliminate the need for DDOs to have
                  $4.8  million in cash on hand. However, the DFAS Disbursing Operations Procedures
                  Manual does not require that DDOs use ATMs or EFTs to fund contingencies such as
                  hurricane evacuations. Because ATMs and EFTs are widely available in the CONUS,
                  cash should not be advanced to aid personnel during CONUS evacuations. Additionally,
                  DoD  FMR, volume  9, chapter  7 states that cash is the least preferred disbursement
                  method and should be used only when no other alternatives exist. Because of the
                  widespread acceptance of EFTs and checks in CONUS, cash, with the inherent risk
                  associated with it, should not be used in a post disaster scenario.


                  Cash Calculation Criteria Needed
                  DDOs held excess cash to fund paying agents and contingency operations because
                  the DFAS Disbursing Operations Procedures Manual did not provide adequate
                                           guidance for determining the cash needs for paying agents and
                                                 contingencies. Also, it did not require that ATMs or EFTs

                                The                 be used for contingency operations, such as CONUS
                          DFAS Disbursing            hurricane evacuations.     The manual does provide
                      Operations Procedures           extensive guidance for determining how much cash
                      Manual did not provide
                                                      should be held to meet daily operating cash needs
                       adequate guidance for
                        determining the cash          by netting cash disbursements and collections.
                      needs for paying agents         However, it does not provide guidance for computing
                         and contingencies.          how much cash should be held to support paying
                                                   agents. Paying agent missions tend to be infrequent and
                                                paying agents often return a high percentage of the funds



6 │ Report No. DODIG-2014-071
                                                                                                                Finding



advanced to them, which makes netting an ineffective way of calculating cash
needs.        In addition, DDOs typically had advance notice of missions requiring
cash and could replenish cash within 7  days.                   As a result, the government may
pay approximately $6,300 in interest over 1  year.  The Director, Disbursing
Operations (DFAS, Indianapolis) needs to revise the DFAS Disbursing Operations
Procedures Manual to provide DDOs specific guidance to calculate how much
cash is needed to fund paying agents and require DDOs use alternatives to
cash to make CONUS evacuation payments or justify how much cash will be
needed to make these payments.


Navy Cash Management Best Practices
The Navy does not hold or use cash to support CONUS hurricane evacuations;
instead, it uses alternatives to cash such as the government travel card, ATMs, and
EFTs.  The Navy faces the same challenges as the Air  Force
when evacuating personnel, but it also has facilities that
                                                                                    The
are in locations prone to and vulnerable to hurricanes                          Navy does
such as Naval Air Station Pensacola.  Naval Air Station                      not hold or use
Pensacola is on the Gulf of Mexico and is located                        cash to support CONUS
                                                                         hurricane evacuations;
43  miles from Hurlburt  Field and 54  miles from                      instead, it uses alternatives
Eglin  AFB, but it holds no cash. Thus, the Air Force                      to cash such as the
DDOs could reduce interest costs to the U.S. Treasury,                      government travel
                                                                             card, ATMs, and
the risk of theft or loss of funds, and administrative
                                                                                   EFTs.
costs associated with securing cash, by adopting
practices used by the Navy to limit cash held on hand to
fund hurricane evacuations.


Hurlburt Field DDO Exceeded Cash Holding Authority
The Hurlburt Field DDO held more cash than authorized, which exceeded his
CHA of $1.2  million by $88,000.                  As of October  29,  2013, our cash count at the
Hurlburt  Field DDO revealed $1,288,000 in cash—$902,000 cash on hand and
$386,000 with agents.  Of the $386,000 with agents, the DDO advanced
$101,000 in U.S.  Treasury checks to agents but did not consider these checks
when        determining        compliance        with   his   CHA.    Thus,   the   DDO   incorrectly
calculated his funds with agents when determining CHA compliance as $285,000
instead of $386,000 and believed that he was under the CHA by $14,0002


	2	
      We used rounded numbers throughout the report.




                                                                                             Report No. DODIG-2014-071 │ 7
Finding



                  instead of exceeding it by $88,000.        This occurred because the Hurlburt DDO
                  misinterpreted the DoD  FMR’s definition of cash and mistakenly believed that
                  readily negotiable checks were not part of his CHA. As a result, the internal controls
                  that are designed to limit the DDO’s accountability were weakened and the risks
                  of theft or loss of cash were increased.


                  Management Actions
                  During the audit, Joint Base  Charleston reduced the amount of cash it was
                  authorized to support paying agents from $1.4  million in its April  2013 CHA to
                  $1  million in its October  2013 CHA.      Joint Base  Charleston stated that reducing
                  its October  2013 authorization by an additional $711,000 could leave it unable to
                  support paying agents, which could jeopardize its mission.      We believe a further
                  reduction would be reasonable because Joint Base  Charleston typically had
                  advance notice of missions requiring cash and was able to replenish cash within
                  7  days, similar to DDOs at Hurlburt Field and Offutt AFB.      Hurlburt Field stated
                  that it was considering reducing its CHA; while Offutt  AFB stated that it planned
                  to reduce its cash authorized for paying agents from $1  million to $815,000 on
                  its April  2014 CHA.     In addition, the Hurlburt Field DDO has since reduced his
                  cash on hand to be in compliance with his CHA.            Based on the actions taken
                  by some of the disbursing offices reviewed and until the recommendations
                  made in this report are implemented, we are not making a recommendation to
                  reduce the cash amounts further.


                  Recommendations, Management Comments, and
                  Our Response
                  We recommend that the Director, Disbursing Operations (Defense Finance and
                  Accounting Service, Indianapolis) revise the Defense Finance and Accounting
                  Service Disbursing Operations Procedures Manual to:

                                a.	 provide deputy disbursing officers guidance to calculate how much
                                    cash is needed to fund paying agents.

                  Director, Defense Finance and Accounting Service, Indianapolis
                  The Director, Defense Finance and Accounting Service, Indianapolis, responding
                  for the Director, Disbursing Operations (Defense Finance and Accounting Service,
                  Indianapolis), agreed, stating that the Director, Disbursing Operations (Defense
                  Finance and Accounting Service, Indianapolis) updated his guidance to include




8 │ Report No. DODIG-2014-071
                                                                                                  Finding



computation instructions for DDOs to use when determining how much cash is
needed to fund paying agents.     He stated that the updated guidance was sent to
Air Force DDOs on January 29, 2014, and provided us a copy.


Our Response
Comments from the Director, Defense Finance and Accounting Service,
Indianapolis addressed all specifics of the recommendation, and no further
comments are required.

             b.	 require alternatives to cash for continental U.S. evacuation
                payments     or    justify   how   much       cash   is   required    to
                make these payments.

Director, Disbursing Operations DFAS Comments
The Director, Defense Finance and Accounting Service, Indianapolis, responding
for the Director, Disbursing Operations (Defense Finance and Accounting
Service, Indianapolis), agreed, stating that the Director, Disbursing Operations
(Defense Finance and Accounting Service, Indianapolis) reviewed and
justified cash that was required for continental U.S. evacuation payments. The
director reported a reduction of the Air  Force’s total cash holding authority of
$7.1 million for the period ending April 1, 2014. In addition, the director stated
that he considered a non-cash option as an alternative to cash and receives
input from commanders in the field who carry out the missions.

Our Response
Comments from the Director, Defense Finance and Accounting Service,
Indianapolis addressed all specifics of the recommendation, and no further
comments are required.




                                                                               Report No. DODIG-2014-071 │ 9
Appendix




                  Appendix
                  Scope and Methodology
                  We conducted this performance audit from May  2013 through March  2014 in
                  accordance          with    generally   accepted       government     auditing   standards.    Those
                  standards require that we plan and perform the audit to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our findings and
                  conclusions based on our audit objectives. We believe that the evidence obtained
                  provides a reasonable basis for our findings and conclusions based on our
                  audit objectives.

                  After reviewing the universes of DSSNs for all the services, and considering
                  prior and ongoing audit coverage, we selected sites based on the Air  Force’s
                  portion        of   DoD’s    CONUS      cash.    The     Air  Force    is   holding   approximately
                  $52  million in cash at 79  sites worldwide; including 63  Air  Force CONUS
                  sites.  We nonstatistically selected all five CONUS Air  Force sites in which the
                  DDOs had cash on hand and cash with agents totaling more than $1  million, from
                  August  2013 through October  2013: (1) Joint Base  Charleston; (2) MacDill  AFB;
                  (3) Offutt AFB; (4) Eglin AFB; and (5) Hurlburt Field.

                  During our site visits, we interviewed DDOs, cashiers, paying agents, DFAS officials,
                  and other disbursing staff to gain an understanding of how CHAs are prepared
                  and how cash is used by the DDOs. We also observed DDOs and cashiers perform
                  cash counts at each disbursing office.                 We compared the results of these cash
                  counts to the cash on hand reported by the DDOs on their daily statements
                  of accountability and found no significant differences. We continued to gather data,
                  perform analysis, and meet with key individuals through February 2014.

                  In order to determine whether sites had excess cash we reviewed the
                  October  2013 CHAs prepared by each DDO. We calculated each DDO’s cash needs
                  based on the three categories of cash: operating cash, cash to fund paying agents,
                  and cash to fund contingency operations.                  We recalculated operating cash needs
                  based on the net of total cash collections and disbursements over a 3-month time
                  period prior to each DDO’s October  2013 CHA request.  The specific 3 months
                  of activity varied and were based on the months used in the DDO’s calculations.
                  Operating cash needs for the sites were low and we did not find any significant
                  excess cash.




10 │ Report No. DODIG-2014-071
                                                                                              Appendix



We determined the amount of cash needed to fund paying agents by identifying
the maximum amount of cash advanced to paying agents in the 3-month period
selected by the DDOs in their calculation of operating cash requirements.          We
based our calculation on the history of fund advances and returns documented
in the DD  Form  1081, “Statement of Agent Officer’s Account.”     We also reviewed
management explanations of why additional cash may be needed to fund paying
agents.   We defined excess as any cash requested for paying agents above this
amount.  We considered the maximum amount of cash advanced to paying
agents as a reasonable benchmark because it is a historical snapshot of the
DDO’s peak cash usage.     DDOs were consistently below this benchmark over the
3 months of activity reviewed.

We determined how much cash was needed to fund contingency operations
by reviewing management statements regarding the need for the cash and the
availability of ATMs and EFTs. We also interviewed Navy military pay management
personnel to determine how it funded CONUS hurricane evacuations without
cash and reviewed Navy Statements of Accountability to verify that the Navy did
not have cash at selected CONUS facilities prone to hurricanes.        We considered
any cash amount requested for CONUS hurricane evacuations and other CONUS
contingencies excess because alternatives to cash such as ATMs and EFTs are
widely available in the CONUS.

We determined whether DDOs had unauthorized cash by comparing their cash
on hand to what they were authorized to hold in their October  2013 CHA.  We
considered a DDO to have unauthorized cash when the cash on hand exceeded
the authorized amount on the October 2013 CHA.


Use of Computer-Processed Data
We did not rely on computer-processed data to reach our conclusions.


Prior Audit Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and
Naval Audit Service have issued eight reports discussing cash on hand and
internal controls in place.      Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/pubs/index.cfm. Naval Audit Service reports are not available
over the internet.




                                                                            Report No. DODIG-2014-071 │ 11
Appendix



                  DoD IG
                  Report No. D-2011-01 “Controls Over Army Deployable Disbursing System
                  Payments Needs Improvement,” August 17, 2011

                  Report No. D-2010-037 “Internal Controls Over United States Marine Corps Commercial
                  and Miscellaneous Payments Processed Through the Deployable Disbursing System,”
                  January 25, 2010

                  Report No. D-2010-034 “Internal Controls Over the Army, General Fund Cash and
                  Other Monetary Assets Held in Southwest Asia,” January 8, 2010

                  Report  No. D-2009-003 “Internal Controls over Army, General Fund, Cash and Other
                  Monetary Assets Held Outside of the Continental United States,” October  9, 2008

                  Report No. D-2008-123  “Internal Controls Over  Navy General Fund, Cash, and Other
                  Monetary Assets Held OCONUS,” August 26, 2008

                  Report No. D-2008-121 “Internal Controls for Air Force General Fund, Cash, and Other
                  Monetary Assets,” August 18, 2008


                  Naval Audit Service
                  Report No. N2012-0003 “Department of the Navy Acquisition and Disbursing
                  Checks and Balances at Camp Lemonier, Djibouti, Africa,” November 9, 2011

                  Report No. N2009-0041 “Department of the Navy Acquisition and Disbursing
                  Checks and Balances at Camp Lemonier, Djibouti, Africa,” July 30, 2009




12 │ Report No. DODIG-2014-071
                                          Management Comments




Management Comments
Defense Finance And Accounting Service,       Final Report
                                              Reference
Indianapolis Comments
                                              Director Defense
                                              Finance and
                                              Accounting Service,
                                              Indianapolis
                                              provided
                                              additional material
                                              documenting
                                              actions the
                                              Director,
                                              Disbursing
                                              Operations
                                              (Defense Finance
                                              and Accounting
                                              Service,
                                              Indianapolis)
                                              has taken.  This
                                              material is not
                                              included in this
                                              report due to its
                                              length.




                                          Report No. DODIG-2014-071 │ 13
Management Comments



                  Defense Finance And Accounting Service,
                  Indianapolis Comments (cont’d)




14 │ Report No. DODIG-2014-071
                                         Acronyms and Abbreviations




Acronyms and Abbreviations
  AFB Air Force Base
  ATM Automated Teller Machine
  CHA Cash Holding Authority
CONUS Continental United States
 DSSN Disbursing Station Symbol Number
  DDO Deputy Disbursing Officer
   DO Disbursing Officer
   EFT Electronic Funds Transfer




                                            Report No. DODIG-2014-071 │ 15
           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            Media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                      Reports Mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                          DoD Hotline
                         dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
